I, RODNEY BERRYMAN Sr., DO SWEAR OR DECLARE THAT ON THIS DATE \3i~31-^030
THAT THIS "DECLARATION OF SERVICE" IS IN COMPLIANCE WITH 28 U.S.C. ยง1746.
ALSO I HAVE SERVED THE ENCLOSED FORM ON THE PARTIES
TO THE ABOVE PROCEEDINGS OR THAT PARTY'S COUNSEL, AND ON EVERY OTHER
PERSON REQUIRED TO BE SERVED, BY DEPOSITING AN ENVELOPE CONTAINING THE
ABOVE DOCUMENT, AND BY HANDING IT TO THE CORRECTIONAL STAFF SO TO BE
MAILED PROPERLY ADDRESSED TO EACH OF THEM, WITH FIRST CLASS POSTAGE
PREPAID OR BY DELIVERY TO A THIRD PARTY COMMERCIAL CARRIER FOR DELIVERY
WITHIN THREE (3) CALENDAR DAY.
1. THE NAMES AND ADDRESSES OF THOSE SERVED ARE AS FOLLOWS:
2. BRIAN R. MEANS DEPUTY ATTORNEY GENERAL, 1300 I STREET, SUITE 125 P.O.
BOX 944255 SACRAMENTO CA. 94244-2550., Ph. 916-324-5254
3. SAOR E. STETLER #194978 ATTORNEY AT LAW, P.O. BOX 2189 MILL VALLEY' CA.
94942. , Ph. 415-388-8924
4. TIM BROSNAN #75938 ATTORNEY AT LAW, P.O. BOX 2294 MILL VALLEY, CA.
94941. , Ph. 415-962-7967
5.

I, RODNEY BERRYMAN Sr. DECLARE UNDER PENALTY OF PERJURY THAT.THE
FOREGOING IS TRUE AND CORRECT.

6.

EXECUTED ON

aolO

2/l

12

